Audit of Interest in NSF Providing More
            Research Results



      National Science Foundation
       Office of Inspector General




           September 25, 2006
             OIG 06-2-013
Table of Contents

        Executive Summary….……………...………………………………...…i

        Introduction…………………………...………………………………..…1

        Background………..…………………………………………...…….......1

        Objective, Scope, and Methodology……………………………….…..2

        NSF Constituents Express Interest in More Information
             on Research Results……………………………………..……...4

        Overwhelming Interest in Brief Summaries and
             Publication Citations…………………………………….......…..7

        Conclusion and Recommendations…………………..…………..……9

        Appendix A: Agency Response………………………………..…….12

        Appendix B: Additional Information on Questionnaires……….......14

        Appendix C: Additional Information on Surveys………...…..……..17

        Appendix D : Additional Information on Results of
             Organization Interviews……………………………………......20

        Appendix E : Additional Information on Results of
             Program Officer Interviews……………………………..….….25
Executive Summary

Background:         Communicating the results of scientific research is key to
                    furthering science and ensuring accountability for federal
                    research dollars. The websites of federal agencies
                    funding basic research, including the National Science
                    Foundation (NSF), can play an important role in
                    disseminating research results to researchers and other
                    interested constituents. However, NSF has only recently
                    begun planning to provide more research results, in the
                    form of citations of scientific publications resulting from
                    NSF-funded research, on its website.


Purpose:            Prior audit work and legislative proposals indicate a
                    public interest in the results of federally funded research.
                    The objective of this audit was to assess the interest
                    among NSF’s various constituents for NSF to provide
                    information about the results of the research it funds on
                    its website.


Results in Brief:   Recent surveys conducted by the U.S. Government
                    Accountability Office and NSF indicate that NSF
                    constituents have an interest in NSF providing more
                    information about the results of the research it funds.
                    Interviews we conducted with executives of organizations
                    representing NSF’s diverse constituents, as well as with
                    NSF program officers, corroborate these results.

                    The organization executives and NSF program officers
                    expressed an interest in NSF posting more research
                    results, in some format, on its website. They cited
                    multiple advantages to NSF providing this information,
                    such as helping researchers identify possible
                    collaborators and improving the public’s understanding of
                    scientific research. While they also expressed some
                    concerns, such as the premature disclosure of
                    proprietary information or an invention, the advantages
                    appear to outweigh the concerns and could be mitigated
                    by NSF’s policies and practices.

                    In terms of the best format to convey the research
                    results, organization executives and NSF program


                                     i
                   officers expressed an overwhelming interest in NSF
                   posting brief summaries of research results and
                   publication citations on its website. They also indicated
                   some interest in NSF posting conference proceedings,
                   abstracts of journal articles, and final project reports.

                   By providing greater public access to the results of the
                   research it funds, NSF would further the public’s
                   knowledge and understanding of scientific research,
                   assist researchers in building on prior work, and make its
                   operations more transparent and accountable.


Recommendations:   In addition to NSF continuing with its plans to make
                   publication citations available on its website, we
                   recommend that NSF use its positions on various
                   government-wide committees to advocate for the
                   inclusion of brief summaries in project reports. These
                   summaries could then be made available to the public.
                   In addition, we recommend NSF consider posting other
                   formats, such as final project reports, conference
                   proceedings, and/or journal abstracts on its website or
                   providing links to these documents if they are available
                   elsewhere.


Agency Response:   NSF agreed with the OIG that access to science is an
                   important issue. We originally recommended that NSF
                   require researchers to submit brief summaries of
                   research results that NSF could then post on its website.
                   However, NSF stated that it would be premature to revise
                   reporting requirements because of government-wide
                   efforts to standardize templates used by researchers to
                   report their results to various federal funding agencies.
                   Accordingly, we modified our report to recommend that
                   NSF use its position on these committees to advocate for
                   brief summaries of research results. NSF agreed with
                   our recommendation to consider posting other forms of
                   results information and is exploring posting journal
                   abstracts or links to these abstracts on the NSF website.




                                   ii
Introduction
          Communicating the results of scientific research is key to furthering
          science and ensuring accountability for federal research dollars.
          Federal agencies’ websites can play an important role in
          disseminating research results as more of the general public and
          researchers use the Internet to obtain information about science.
          By including the results of federally funded research on their
          websites, agencies provide researchers with access to results
          across many fields of science and encourage interdisciplinary
          approaches to research. Access by students, small businesses,
          and educators could lead to new discoveries and innovations and
          improve learning. Readily available research results can also
          inform stakeholders of how public funds are invested, thus
          increasing agency accountability. Federal agencies have a unique
          opportunity to provide the scientific community and the public with
          direct access to information resulting from the research they fund.


Background
          Although NSF informs the public about proposed research selected
          for funding, it does little to publicize the results of individual
          research projects, other than featuring selected notable discoveries
          and other scientific highlights on its website. Instead, NSF relies on
          researchers to disseminate information about their work through
          peer-reviewed publications and professional conferences. These
          methods of communication, however, may not reach all parties
          interested in the work funded by NSF, including educators and
          students outside the scientific community and policymakers in
          Congress.

          In February 2006 we issued a report on NSF’s policies and
          practices for disseminating the results of the research it funds and
          recommended NSF provide policymakers and the public with
          greater access to this information.1 We recommended that NSF
          make publication citations available on its website in order to inform
          the public of publications that resulted from NSF’s investment in
          research. Providing publication citations would make NSF’s policy
          consistent with those of other large federal agencies funding
          scientific research, such as the National Aeronautics and Space

          1
           National Science Foundation Office of Inspector General, “Audit of NSF’s
          Policies on Public Access to the Results of NSF-Funded Research” (OIG 06-2-
          004), February 17, 2006.


                                        1
         Administration, the U.S. Department of Energy (DOE), the U.S.
         Department of Defense (DOD), and the National Institutes of Health
         (NIH). NSF concurred with this recommendation and has
         developed an action plan to implement this change.

         Our report also noted a general interest in information about the
         results of federally funded research. For example, the websites of
         other federal science agencies experience a high volume of use by
         the public. During fiscal year 2005, the DOE Information Bridge
         website, which contains research results, had approximately 38
         million user transactions. During the same period DOD’s Defense
         Technical Information Center public website, which includes the
         results of research funded by various DOD research offices,
         received over 20.3 million hits. NIH’s PubMed website received
         approximately 2.1 million hits per day.

         Usage of NSF’s website, redesigned in January 2005, has also
         increased. During calendar year 2005, the website had
         approximately 500,000 visits per month, and that number increased
         over 40 percent, to approximately 700,000 visits per month,
         between January and May 2006. Also, from January to May 2006,
         the News and Discovery sections of NSF’s website, which contain
         limited results information for select research projects, received
         over 300,000 page views per month.2

         With more people accessing federal agencies’ websites, Congress
         is addressing concerns about the public’s ability to obtain
         information on the results of federally-funded research. The
         recently proposed Federal Research Public Access Act of 2006
         would require federal agencies with extramural research
         expenditures of over $100 million to make available, via the
         Internet, an electronic version of published articles whose research
         has been funded by that agency. Lawmakers expressed hope that
         this type of access will help accelerate science, innovation, and
         discovery.


Objectives, Scope, and Methodology
         Prior audit work and legislative actions indicate a public interest in
         the results of federally funded research. As such, the objective of
         this audit was to assess the interest among NSF’s various

         2
          A page view is defined as a request from a visitor's browser for a displayable
         web page.



                                         2
constituents for NSF to provide information about the results of the
research it funds on its website.

To meet this objective, we analyzed the results of three recent
surveys of NSF constituents which reported a general interest in
NSF providing more research results directly to the public. In
addition, we designed and administered our own questionnaire to
assess the views of some of NSF’s major constituents on the
advantages and concerns of NSF posting eight different research
work products on its website. We interviewed the executive
director (or designee) of seven national organizations that
represented educators, libraries, individual librarians, groups
currently underrepresented among NSF-funded researchers
(women and minorities), science writers and journalists, and
researchers. We also interviewed a random sample of 18 NSF
program officers from NSF’s 9 directorates and offices to obtain
their unique perspective, as both researchers and managers of
federal research funds, about the advantages, concerns, and
whether NSF should post these 8 research work products.

Finally, we interviewed representatives from both a national and an
international organization representing publishers of scientific
journals to obtain their opinion on any potential conflicts that might
arise from NSF posting the results of its funded research on its
website. Details about the questionnaire, surveys, and interviews
with organizations and program officers are located in Appendices
B, C, D, and E, respectively.

We conducted our audit work between January and June 2006 in
accordance with generally accepted government auditing
standards.




                           3
NSF Constituents Express Interest In More Information
on Research Results
         Recent surveys indicate that NSF constituents have an interest in
         NSF providing more information about the results of the research it
         funds. Interviews with executives representing constituent
         organizations and NSF program officers corroborated the survey
         results. By providing more results information on its website, NSF
         would begin to satisfy this interest and, in doing so, would make its
         operations more transparent and accountable.


         Recent Surveys Indicate an Interest in More Research Results

         Three recent surveys of NSF constituents substantiate an interest
         in federal agencies, and NSF in particular, providing greater access
         to the results of the research they fund. Specifically, respondents
         to a survey conducted by the U.S. Government Accountability
         Office (GAO) and two separate NSF-funded surveys indicated an
         interest in the results of scientific research (see Appendix C for
         more information on each survey).

         GAO Survey

         In 2003, GAO surveyed the sponsored research offices at the 200
         universities that received the most federal funding for research and
         development in fiscal year 2000.3 The survey specifically asked the
         offices’ views on whether federal grantees’ final technical reports
         should be posted on the public websites of the agencies providing
         the grants.

         Of the 171 offices responding to the survey, 53 percent supported
         posting final technical reports on agency websites, while only 18
         percent were opposed4. Although the respondents expressed
         several concerns, such as users might find the reports incomplete
         or misleading, or the reports might prematurely disclose research
         results, they also stated that posting reports could have many
         benefits. These benefits included facilitating collaboration among
         scientists, improving scientists’ access to research results,

         3
           U.S. Government Accountability Office, “University Research – Most Federal
         Agencies Need to Better Protect against Financial Conflicts of Interest” (GAO-04-
         31), November 2003.
         4
           Twenty-six percent of the offices were uncertain and 3 percent provided no
         answer.


                                        4
establishing a public record of unpublished work, and providing for
the prompt dissemination of research results.


NSF Customer Satisfaction Survey

In a survey conducted by NSF, more than 4,000 respondents
stated that they would like to have more information on NSF-funded
research results. NSF conducted this survey on its website from
October 2003 through March 2004, and again from July 2005
through January 2006, to gauge visitors’ satisfaction with the
website. The survey included questions about who uses the
website, how they use it, and what users would like to see added to
it. It was offered to 10 percent of the approximately 200,000
website visitors, and the 12,000 respondents included scientists,
students, educators, and the general public. When asked what they
would like to see more of or see added to the website, respondents
most frequently answered “research results.”


NSF Website Redesign Survey

Respondents expressed similar interest in research results in
another NSF survey conducted between February and March 2004.
In this survey, NSF sent emails to over 12,000 people to gather
information to aid the agency in designing its new website. The
approximately 1,500 survey respondents included members of the
public, the media, the research and education community, and a
few members of the legislative community. Respondents were
asked to select from a list of options as to what type of scientific
and engineering information and resources they were most
interested in. Over 50 percent said they were interested in
summarized information about new discoveries in science. This
suggests an interest for research results, relative to the other sorts
of resources about which respondents were asked, such as
information on funding, grants, events, and profiles of scientists and
engineers.

Interviews with NSF Constituents and Program Officers
Confirm Interest in More Research Results on NSF’s Website

We also interviewed executives from 7 NSF constituent
organizations and 18 NSF program officers from across the
agency. Similar to the survey responses, all 7 organization
executives and all 18 NSF program officers expressed an interest
in NSF posting more research results, in one form or another, on its



                           5
website. They cited multiple advantages to NSF providing more
research results, including providing interested parties direct
access to these results, helping researchers identify possible
collaborators, improving the public’s understanding of scientific
research, and facilitating prompt dissemination of research results.

Based on the estimated interest from just the memberships of the
seven organizations, NSF could reach tens of thousands of people
by providing more research results on its website. Examples of
those who could benefit from the information include:
   • Freelance science writers, who could use the results to
      identify and write stories;
   • Post-secondary teachers, who could use the information to
      create lesson plans;
   • College and university sponsored research offices, who
      could use the products to identify who they are competing
      against for limited research and development funds;
   • Women and other minorities in the research community, who
      could use the information to identify cutting edge areas of
      research and prepare more competitive proposals; and
   • Other researchers, who could use this information to learn
      about current research in interdisciplinary areas and to
      determine trends in funding.

The organization executives and NSF program officers also cited
some concerns with posting research results, such as the
possibility of disseminating incomplete or misleading research and
the premature disclosure of proprietary information or an invention.
However, these concerns could be effectively mitigated by new or
existing NSF policies and practices. For example, NSF could
include a statement on its website that it has not verified the
completeness or accuracy of the results information provided. In
the required formats for submitting research results, NSF could use
language similar to its current disclosure for its electronic reporting
system that alerts principal investigators submitting project reports
not to include any information that could adversely affect an
individual’s patent rights.

Some also expressed concern that the results information,
depending on its format, could be viewed as a publication and,
therefore, could hinder researchers’ ability to publish articles about
their work in scientific journals. To determine the extent to which
NSF’s posting of research results might affect researchers’
relationships with publishers, we interviewed executives at two
organizations representing a large number of scholarly journals.
They both stated that the publishers they represent are not likely to


                            6
        view NSF’s posting of research results as a violation of publishers’
        policies that researchers not publish the same results elsewhere.
        While the organization executives expressed some concern with
        NSF posting actual journal articles or manuscripts of articles
        because of copyright and other issues, they both supported NSF
        posting more research results on its website. As one
        representative explained, taxpayers have a right to the results of
        NSF-funded research because they paid for the research, and
        releasing more research results would allow the public and
        scientists in different fields to understand the science NSF funds,
        increase scientific literacy, help policy makers to make decisions,
        and ensure accountability.




Overwhelming Interest in Brief Summaries and
Publication Citations
        While everyone we interviewed expressed an interest in NSF
        providing more research results on its website, organization
        executives and NSF program officers expressed the most interest
        and support for NSF posting both brief summaries of research
        results and publication citations resulting from the research. They
        also indicated some interest in NSF posting conference
        proceedings, journal abstracts, and final project reports.

        Strong Support for Brief Summaries and Publication Citations

        To determine what format NSF should use to meet its constituents’
        interests in obtaining more research results, we asked the
        organization executives and NSF program officers to consider eight
        possible products, each containing the results of NSF-funded
        research: final project reports, annual project reports, brief
        summaries of research results, conference proceedings, publication
        citations, journal abstracts, full text journal articles, and manuscripts
        of accepted journal articles.

        Representatives from all 7 organizations and over two-thirds of the
        18 NSF program officers stated NSF should provide the public with
        brief summaries of the results of NSF-funded research and
        publication citations. The organization representatives expressed
        the most support for posting brief summaries while NSF program
        officers expressed slightly more support for publication citations
        than brief summaries.




                                    7
Overall, the organization executives and NSF program officers
identified both advantages and concerns for brief summaries and
publication citations. These two products would provide the most
useful information to meet the needs of NSF’s various constituents.
Brief summaries appear to have received the strongest support
because this format provides a concise means to reach both
researchers and the public. The summaries could help researchers
identify collaborators and provide for the prompt dissemination of
research while, at the same time, improve the public’s
understanding of research and inform stakeholders about the
results of NSF-funded research. Similarly, publication citations
could direct researchers to the journal articles while also informing
stakeholders about the results of NSF-funded research. The
concerns expressed about NSF posting brief summaries and
publication citations on its website were generally the same ones
mentioned for the other formats and could be addressed by existing
or amended NSF policies and practices as discussed earlier.


Some Support for Conference Proceedings, Abstracts, and
Final Project Reports

More than half of the organization representatives and about half of
the program officers, when asked their perspective as researchers,
also supported NSF posting conference proceedings, journal
abstracts, and final project reports on its website. However, their
interest in these items was not as overwhelming as their interest in
posting the brief summaries and publication citations. Further,
while almost all of the organization executives supported NSF
posting final project reports, more than half of the NSF program
officers, when speaking from the perspective of NSF managers,
stated that these reports should not be posted.

Those who supported NSF posting conference proceedings, journal
abstracts, and final project reports cited advantages to having this
information available, such as helping researchers obtain the
results of NSF-funded research and identify possible collaborators.
They specifically stated final project reports would also provide a
mechanism for the prompt dissemination of research results and
the dissemination of the results of unpublished research. However,
program officers expressed concern about the added costs for NSF
personnel to review the reports for content and clarity before they
were made available on the website and the lack of peer review for
these reports.




                           8
        Finally, the organizations and program officers expressed little
        support for NSF posting the remaining items - annual project
        reports, the full text of published journal articles, and the
        manuscripts of journal articles accepted by publishers. They stated
        that the other products, particularly the brief summaries and the
        publication citations, contain sufficient information on the results of
        NSF-funded research.


        NSF Is Taking Steps, but Can Do More, to Meet Demand for
        Research Results

        In our previous audit on NSF’s dissemination policies, we
        recommended NSF take steps to make more information about the
        results of the research it funds available to the public.5 In response,
        NSF is taking steps to provide more information directly to the
        public by posting publication citations on its website. NSF agreed
        that it has a responsibility to provide the scientific community and
        the public with direct access to information resulting from the
        research it funds. According to its implementation plan, the agency
        expects to make the publication citations available to the public by
        July 2007. However, as our surveys and interviews have
        demonstrated, NSF’s plans to post publication citations only meet
        part of its constituents’ interests identified in this report.




Conclusion and Recommendations

        By providing greater public access to the results of NSF-funded
        research, NSF could further the public’s knowledge and
        understanding of scientific research. Such information could also
        provide more information for researchers, facilitate locating
        collaborators, and advance discoveries by allowing others to build
        on prior research. Additionally, NSF could meet the needs of its
        wide array of constituents while also providing for accountability
        and transparency of federal dollars.

        As such, we recommend that the Deputy Director, NSF:



        5
         National Science Foundation Office of Inspector General, “Audit of NSF’s
        Policies on Public Access to the Results of NSF-Funded Research” (OIG 06-2-
        004), February 17, 2006.



                                      9
       1. Ensure NSF uses its positions on various government-wide
       committees6 to advocate for the inclusion of brief summaries in
       progress and final project reports so that NSF could then make the
       summaries available directly to the public. We suggest that the
       brief summaries be a part of, or serve as, the accomplishments
       section included in a project report.

       2. Consider posting final project reports, conference proceedings,
       and/or journal abstracts on its website or providing links to these
       documents if they are available elsewhere.




Agency Response and OIG Comments
       NSF agreed that access to the results of NSF-funded research is
       important and such access can provide benefits to many of NSF’s
       constituents. However, NSF did not agree with our original
       Recommendation 1 in which we recommended that NSF post brief
       summaries of the results of NSF-funded research on the NSF
       website for every project the agency funds. NSF stated in its
       response to our draft audit report (see Appendix A) that it would be
       premature to change reporting requirements for researchers at this
       time because of other government-wide efforts underway to
       standardize the templates used by researchers to report their
       progress to their funding agencies. NSF also cited concerns that
       these summaries would not be peer reviewed and added that the
       Office of Legislative and Public Affairs is doing more to disseminate
       the results of NSF-funded research.

       We acknowledge and understand NSF’s concern with changing
       reporting requirements that may be changed again under on-going
       Federal initiatives. Nevertheless, we believe it is important for NSF
       to make research results more accessible. We assume that, similar
       to the proposed standardized annual progress report format, a
       standardized final project report format would likely include some
       requirement for the reporting of project accomplishments. These
       accomplishments, perhaps, can serve the same purpose as brief
       summaries. Accordingly, we have modified our report to
       recommend that NSF use its positions on these various

       6
        NSF staff currently serves as members of various government-wide committees
       considering how to standardize formats for reporting the progress and results of
       scientific research. These include the Research Progress Report Working Group
       of the National Science and Technology Council’s Research Business Models
       Subcommittee and the Grants Policy Committee of the Chief Financial Officers
       Council.


                                     10
government-wide committees to advocate for the inclusion of brief
summaries in project reports. The summaries could then be made
available directly to the public. We also hope that these
government-wide initiatives will be completed in a timely manner.

NSF agreed with our second recommendation that the agency
should consider posting other items, such as journal abstracts, on
its website. The agency stated that it is currently formulating plans
to explore the option of providing links to the abstracts of journal
articles based on NSF-funded research. Appendix A contains the
agency’s response in full.




                          11
Appendix A: Agency Response




                         12
13
Appendix B: Additional Information on Questionnaires
We interviewed the executive director or designee (organization representative)
from seven organizations representing various NSF constituents who may be
interested in the results of NSF-funded research. Using a structured interview
format, we described possible products containing information about the results
of NSF-funded research and then asked if members would use the products if
they were posted on NSF’s website, how many would use them, and how they
would be used. We asked for their opinions about the possible advantages of
posting each product as well as their concerns about posting each product. In
addition, we asked the organizational representatives whether NSF should post
the products discussed, using a scale of 1 to 5, with 1 for definitely yes and 5 for
definitely no, and to rank, in priority order, up to four products that they believe
NSF should post on its website.

We provided each organization with the following descriptions of eight products
NSF could post on its website:
  • Final Project Reports – NSF currently requires each awardee to submit a
      final project report to NSF at the end of each project, which includes
      information such as project activities, results of the project, publication
      citations resulting from the project, principal investigators’ websites,
      contact information for the principal investigator, and a description of how
      the research contributes to science.

   •   Annual Project Reports- NSF requires each awardee to submit a project
       report on an annual basis. These reports contain information similar to
       final project reports, such as project activities and publication citations.
       These reports generally contain the progress of the project and interim
       results as opposed to the final results of the project.

   •   Brief Summaries- Researchers could write brief (e.g. 400 word) overviews
       of the results of their NSF-funded research. The summaries could also
       contain names and contact information for the principal investigators.

   •   Conference Proceedings- These materials could include agendas,
       handouts, summaries of sessions, or other conference materials.

   •   Journal Publication Citations- Publication citations of journal articles
       resulting from NSF-funded research.

   •   Journal Abstracts- Abstracts of journal articles resulting from NSF-funded
       research.

   •   Full Text Journal Articles- Journal articles resulting from NSF-funded
       research.



                                         14
   •   Manuscripts of Accepted Journal Articles- Similar to the National Institute
       of Health’s policy, the NSF could archive researchers' final, peer-reviewed
       manuscripts, and post them on its website after the articles are published.
       Manuscripts are similar to the journal articles, except that they have not
       gone through the publisher's final formatting and editing.

We asked the organization representatives to state how much of an advantage,
ranging from great to none, each of the above products would be in:
   • helping their members to obtain information on the latest science research
      in various fields;
   • helping their members to obtain the results of NSF-funded research;
   • helping their members to obtain results of unpublished research;
   • improving the publics’ understanding of scientific research;
   • helping scientists to identify possible collaborators; and
   • helping to provide prompt dissemination of research results.

We also asked the organization representatives to state how much of a concern,
ranging from great to none, it would be that:
   • information in these products could be incomplete or misleading;
   • research results could be prematurely disclosed;
   • an invention could be prematurely disclosed;
   • proprietary information could be disclosed;
   • posting these products could be viewed as a publication by some journals
      whose policies prohibit scientists from publishing their results elsewhere;
   • products lack peer-review and an editorial process; and
   • products would add costs to researchers and institutions who are
      preparing these products.

For journal citations, abstracts, articles and manuscripts, we asked if the
products would duplicate information already available elsewhere, and if the
circulation and revenues of traditional journals would decrease. The results of
the interviews with each organization are contained in Appendix D.

We also interviewed 18 NSF program officers to obtain their views on the eight
research results products. We randomly selected two program officers from
each directorate or office and conducted interviews to determine the interest
among scientists in each program officer’s discipline and among NSF staff to
post more research results on the NSF website. Using a structured interview
similar to the organizational interviews explained above, we asked program
officers, from both their perspective as a researcher and as a manager of a
federal research program, whether researchers would use the products, how and
why they would use them, and the possible advantages and their concerns with
NSF posting these products. We also asked whether NSF should post the
products, applying the same 1 to 5 scale of definitely yes to definitely no. Finally,
we asked program officers to choose up to four preferred products for posting.


                                         15
In addition to the advantages we asked the organizations, we asked program
officers if these products would:
    • help to identify collaborators for cross-discipline research;
    • ensure accountability for NSF-funded research;
    • improve the quality of final project reports and annual project reports;
    • inform various stakeholders about the results of NSF-funded research;
    • limit the number of duplicate proposals NSF receives for a given research
        area; and
    • broaden participation in research.

We also asked program officers about additional concerns as to whether these
products would add costs to NSF program officers who would review these
products and if the products would add additional costs to NSF’s infrastructure.
A summary of the program officers’ interview responses are provided in
Appendix E.




                                        16
Appendix C: Additional Information on Surveys
We obtained and analyzed the results of three surveys related to the interest
among NSF’s constituents for access to the results of scientific research. The
surveys also offered insight into the types of scientific and engineering
information in which NSF’s constituents are interested.

GAO Survey
In November 2003, the U.S. Government Accountability Office (GAO) issued
“University Research – Most Agencies Better Need to Protect Against Financial
Conflicts of Interest” (GAO-04-31). GAO examined federal agencies’ actions to
ensure that the results of the university research grants they fund are made
available to the public, and to determine whether universities receiving such
grants implement policies for identifying and managing possible financial conflicts
of interest. The GAO reviewed the actions of 8 federal agencies and conducted
a web-based survey of the 200 universities receiving the most federal funding for
research and development in fiscal year 2000. They received responses from
171 universities, a response rate of 86 percent. We obtained the survey
responses from GAO and independently verified the information.

The survey asked the sponsored research offices at the 200 universities about
whether or not posting final project reports was a good idea and their views of
four advantages and seven disadvantages of posting grants’ final technical
reports to federal agencies’ websites. The four advantages were: facilitates
collaboration among scientists; facilitates the access of other scientists to the
research results; provides a public record of the research project for results that
are not published; and provides prompt dissemination of research results. They
could check all responses that applied. They also could select a response of
“There are no advantages.”

The seven disadvantages were: added administrative cost of complying with
agency’s requirements concerning preparation of materials to be posted; an
invention could be prematurely disclosed; expose investigators to the possibility
of harassment; information in report may be incomplete and/or misleading;
posting report on the web could be viewed as “publication” by some journals;
proprietary information could be disclosed; and research results could be
disclosed. Again, they could check all that applied. They also could select a
response of “There are no disadvantages.” Respondents were also permitted to
write in any additional advantages and disadvantages not included among the
selections provided by GAO.

Fifty-three percent of the respondents answered that posting the final reports was
probably or definitely a good idea; 26 percent were uncertain; and 18 percent
thought it was probably or definitely a bad idea. Three percent did not provide a
response. The most frequently cited advantage, cited by 73 percent of the
respondents, was that the final project reports would facilitate the access of other


                                         17
scientists to the research results. The most frequently cited disadvantage, cited
by 81 percent of the respondents, was that posting the reports could lead to an
invention being prematurely disclosed.

NSF Customer Satisfaction Survey
NSF conducted a web-based customer satisfaction survey from October 7, 2003
to March 31, 2004, and again from July 21, 2005 through January 18, 2006. The
survey was offered to 10 percent of visitors to NSF’s website. Of the 197,289
surveys offered, NSF received 12,181 responses for an overall response rate of
about 6 percent. The survey consisted of a set of standard customer satisfaction
questions and a separate set of customized questions designed by the NSF. We
obtained the results of the survey from NSF and independently verified the
results to the extent possible.

One customized question asked respondents “What would you like to see more
of or added?” Respondents were provided with a list of options that included:
more discoveries (results of NSF research); more science news; more
information about NSF - funded films, TV, etc.; more special reports; and no
answer.

The most common answer, given by 33 percent of the respondents, was
“Research Results.” The wording of this answer choice was changed mid-survey
to read “More Discoveries (Results of NSF Research),” to more directly address
the “Discoveries” posted on the NSF’s new website. However, respondents
consistently chose this answer 33 percent of the time throughout the survey in
spite of the re-wording.


NSF Website Redesign Survey
NSF conducted an email survey between February and March 2004 to gather
information to aid in designing the agency’s new website. The survey consisted
of questions about the sorts of information and features respondents would like
to see on a scientific and engineering website, where and how frequently they
look for scientific and engineering information, and the types of scientific and
engineering information in which they were most interested. The survey was
offered to a group of over 12,000 people selected by a contractor who conducts
surveys; 1,528 people provided full responses. Respondents identified
themselves as members of the general public (69 percent), the media (13
percent), the research and education community (16 percent), the legislative
community (1 percent), or did not identify themselves (1 percent).

Respondents were asked what types of science and engineering information and
resources they were most interested in. They could select as many options as
applied from a list of different sorts of information, such as detailed new
discoveries in science, summarized new discoveries in science, funding
information, access to scientists, grant information, science photos, calendars of



                                        18
events, and profiles of scientists and engineers. The most popular answer was
“New Discoveries in Science (summaries),” chosen by 53 percent of the
respondents.




                                      19
Appendix D: Additional Information on Results of
Organization Interviews
We interviewed executives or their designees at seven organizations
representing NSF constituents to determine whether there is an interest among
their members for NSF to post more research results on its website. We also
interviewed executives or their designees at two organizations representing
publishers of scholarly and scientific journals to obtain their opinion on any
potential conflicts that might arise from NSF posting the results of the research it
funds on its website. The following sections provide a summary of the results of
those interviews.

Summary of Results of Interviews with Constituent Organization

As shown in Table D-1, all organization representatives expressed support for
NSF disseminating research results in some form. Posting brief summaries and
publication citations were the most frequently cited means of making this
information available to the public. The organization representatives also
expressed some support for posting conference proceedings, journal abstracts
and final project reports. Few supported NSF posting annual project reports, full
text journal articles and manuscripts of journal articles.
Table D-1: Organization representatives’ opinions regarding whether or not NSF should
post various results formats on its website

                                          NSF Should          NSF Should Not
                                                                                       Uncertain
                                             Post                  Post
    Publication Citations                     7a                    0                      0

    Brief Summaries                             7a                    0                    0

    Conference Proceedings                      5                     1                    1

    Journal Abstracts                           4                     0                    3

    Final Project Reports                       6                     0                    1
a
 Representatives from all seven organizations supported NSF posting publication citations and brief
summaries on its website. However, six representatives responded “definitely yes” when asked whether
NSF should post brief summaries, while only 4 provided the same response when asked about NSF posting
publication citations. Therefore, the representatives expressed more support for brief summaries.



Background Information about Constituent Organizations

Organization Representing Science Writers

The purpose of this organization is to foster and disseminate accurate scientific
information to the public, help young science writers, and further science writing.
It is comprised of approximately 2,500 members, including members of the print



                                                 20
and broadcast media, public information officers, freelance science writers, and
some students.

After considering the advantages and concerns of NSF posting research results,
and also recognizing the limits of NSF’s resources, the executive’s top four
formats were brief summaries, abstracts of journal articles, publication citations,
and the full text of journal articles. The executive estimated that more than half
of the organization’s members would use short summaries; about half of the
members would use journal articles and abstracts, and all or almost all of the
members would use the publication citations. Given the organization’s
approximately 2,500 members, about 1,250 people would be interested in
accessing this information. According to the executive, freelance science writers,
whose ranks are growing, are among those most likely to access the information.

Organization Representing Minority Students

This organization is dedicated to improving the education of minority students,
with a special focus on mathematics, science, and engineering. It works to
ensure that minority researchers obtain funding, identify mentors, hold
conferences, and examine current issues in science. The organization has 20
institutional members consisting of 18 universities, with an enrollment of
approximately 100,000, and two science associations.

After considering the advantages and concerns and also recognizing the limits of
NSF’s resources, the executive ranked posting brief summaries, abstracts of
journal articles, final reports, and conference proceedings as the top four format
choices. The executive estimated that more than half of the organization’s
members would use brief summaries; less than half of the members would use
abstracts, and about half would use final project reports and conference
proceedings. Given the organization’s 18 university members serving
approximately 100,000 students and two science association members, posting
these products would satisfy a need for research results information of a wide
and extensive variety of members, and would be a positive contributor to helping
the organization achieve its vision and goals.


Organization Representing Women

This organization’s mission is to achieve equity and full participation for women in
science, mathematics, engineering and technology through networking,
information and communication exchange, and advocacy. Its members include
nearly 3,000 individuals and institutions in the U.S., including corporations and
science associations.

After considering the relevant advantages and concerns, and considering the
limits of NSF’s resources, the executive stated that NSF should post brief



                                        21
summaries, conference proceedings, journal citations, and final project reports.
The executive estimated that more than half of its members would use brief
summaries, journal citations, and final project reports, and almost all would use
conference proceedings. Given the current membership of 3,000 individuals and
institutions, posting research results would be used by at least 1,500 science
professionals and institutions. This would help to broaden participation of an
underrepresented group, women, in science and engineering.


Organization Representing Science Educators

The mission of this organization is to promote excellence in science teaching and
learning. Its 55,000 members include science teachers and other stakeholders in
science education.

After considering the relevant advantages and concerns, the executive stated
that NSF should post conference proceedings, brief summaries, journal abstracts
and journal citations on its website. The executive estimated that less than half of
the organization’s members would use conference proceedings and brief
summaries, and about half of the members would use abstracts and citations of
journal articles. Given the organization’s current membership, thousands of
members would be interested in accessing any of the four products. Those
members who would access the information include secondary and post-
secondary school teachers, and they would use the information for their teaching
and professional development.


Organization Representing Librarians

This organization is dedicated to enhancing the ability of academic library and
information professionals to serve the informational needs of the higher
education community and to improve learning, teaching, and research. The
organization serves community and junior colleges, colleges, and universities as
well as comprehensive and specialized research libraries. Its members include
academic librarians and other interested individuals, and membership totals
approximately 13,000 individuals.

After considering the advantages and concerns, the organization representative
concluded that NSF should post final project reports, annual project reports,
summaries, and publication citations resulting from NSF-funded research on the
NSF’s website. The organization representative estimated that all or almost all of
the organization’s members would use final project reports, annual project
reports, and citations and about half would use the summaries. Therefore, given
the current membership, several thousand librarians and informational
professions would use the products. Given the more than 3,300 university
libraries represented by this organization, college and university faculty,



                                        22
undergraduates, post doctorates, and even international parties would be users
of the information.


Organization Representing Research Libraries

This organization’s mission is to influence the changing environment of scholarly
communication and the public policies that affect research libraries and the
diverse communities they serve. It represents nearly 125 libraries at
comprehensive research-intensive institutions in the United States and Canada.

After carefully considering advantages and concerns, the executive concluded
that NSF should post manuscripts, full text journal articles, final project reports,
and summaries resulting from NSF-funded research. The executive estimated
that all or almost all of its members would use each of the four products. The
executive stated that the groups most likely to use these products included
sponsored research offices, science librarians, college and university faculty,
students, staff, researchers, and the public.


Organization Representing Researchers

This international non-profit organization is dedicated to advancing science
around the world. It publishes a scientific journal as well as many scientific
newsletters, books and reports. Individual membership in this organization is
approximately 140,000 and includes scientists, full-time students, educators,
policy makers and citizens with an interest in science. In addition, affiliate
memberships by other science associations extend the reach of this organization
to approximately 10 million.

After considering the advantages and concerns and also recognizing the limits of
NSF’s resources, the executive’s top choices were for NSF to post publication
citations, brief summaries, and conference proceedings. The executive estimated
that less than half of the membership would use the results because the
members primarily rely on other sources, including journals and other websites.
Nevertheless, thousands of science researchers and other constituents of this
organization would still use these products. The products would be especially
useful to younger researchers seeking science ideas and topics for study,
educators needing material for classroom instruction, and policy makers
assessing agency accountability for funds.




                                          23
Background Information about Publisher Organizations

Organization Representing International Publishers

This organization is an international trade association for not-for-profit publishers
and those who work with them. The organization provides training, conducts
research to support advocacy, and develops best practices in publishing. The
organization represents a large proportion of the world’s scientific journals,
representing 360 members in 36 countries and between 9,500 and 10,000
journals.

The executive stated few or none of its publisher members would consider final
project reports, annual project reports, or brief summaries posted on NSF's
website as being published elsewhere. In addition, the executive stated NSF
should post final project reports, annual project reports, brief summaries,
publication citations, and journal abstracts on NSF’s website. The executive
explained that publishers would be delighted if NSF posted publication citations
on its website, especially if the citations contained a direct link to the article in the
publisher’s journal.


Organization Representing Publishers in the United States

With about 150 members, this organization represents the major science
publishers, university presses, community and non-profit publishers, and book
publishers in the United States. The organization educates members on policy
issues related to publishing and conducts outreach and advocacy.

The executive stated few or none of its publisher members would consider brief
summaries posted on NSF's website as being published elsewhere. Depending
on the timing of when annual project reports or final project reports were posted,
either less than half, few, or none of its members would consider them as
published elsewhere. In addition, the executive stated NSF should post final
project reports, annual project reports, brief summaries, and publication citations
on its website. The executive explained that because most publishers place
journal abstracts on the Internet for free, NSF should place citations on its
websites containing information that would provide a link from the NSF website to
the abstracts.




                                           24
Appendix E: Additional Information on Results of Program
Officer Interviews
We interviewed NSF program officers to determine from their perspective, as
both researchers and managers of federal research programs, whether there is
an interest for NSF to post more research results on its website. The following
section provides a summary of the results of the interviews with program officers.

As shown in Table E-1, a majority of NSF program officers, as researchers,
expressed interest in NSF disseminating more information on research results.
They expressed the most support for using brief summaries and publication
citations as the vehicle to disseminate this information, but also expressed some
support for posting conference proceedings, journal abstracts and final project
reports. Few supported NSF posting annual project reports, full text journal
articles, or manuscripts of journal articles.
Table E-1: Opinions of NSF program officers, from the perspective of researchers,
regarding whether or not NSF should post the following results formats on its website
                                                                            Uncertain
                                     Should Post      Should Not Post
 Publication Citations                   17                  0                   1

                                          15                  2                  1
 Brief Summaries
 Conference Proceedings                   11                  6                  1

 Journal Abstracts                        11                  6                  1

 Final Project Reports                    9                   8                  1


As shown in Table E-2, the NSF program officers, as federal program managers,
still expressed strong support for posting brief summaries and publication
citations, but expressed less support for conference proceedings, journal
abstracts, and final project reports. Again, few supported NSF posting annual
project reports, full text journal articles and manuscripts of journal articles.

Table E-2: Opinions of NSF program officers, from the perspective of federal program
managers, regarding whether or not NSF should post the following results formats on its
website

                                     Should Post      Should Not Post       Uncertain
 Publication Citations                   17                  0                 1

 Brief Summaries                          13                  4                  1

 Conference Proceedings                   8                   6                  4

 Journal Abstracts                        10                  7                  1

 Final Project Reports                    7                  10                  1




                                           25
